•»;

■4 «

* *•

. ♦

United States of America, Plaintiff, v. Brandon Mark Bjerknes. Defendant.
UNITED STATES DISTRICT COURT'FOR THE DISTRICT OF MINNESOTA
2019 U.S. Dist. LEXIS 68310
Case No. 17-cr-0234 (WMW)

April 23, 2019, Decided
April 23, 2019, Filed
Editorial Information: Subsequent History
Post-conviction relief denied at, Request denied by, Motion denied by, Certificate of appealability denied
United States v. Bjerknes. 2020 U.S. Dist. LEXIS 73519 (D. Minn., Apr. 27, 2020)Motion granted by
United States v. Bjerknes. 2020 U.S. Dist. LEXIS 129445 (D. Minn., July 22, 2020)
Counsel

{2019 U.S. Dist. LEXIS 1}For USA, Plaintiff: Angela M Munoz-Kaphing,
LEAD ATTORNEY, USAO, Minneapolis, MN; Craig R Baune, LEAD ATTORNEY, United
States Attorney's Office, Minneapolis, MN.
Judges: Wilhelmina M. Wright, United States District Judge.

•

Opinion
Opinion by:

Wilhelmina M. Wright

Opinion

ORDER
Defendant Brandon Mark Bierknes filed a Pro Se Motion to Vacate, Set Aside or Correct Sentence,
under Title 28, United States Code, Section 2255. (Dkt. 67.) The Court ordered Plaintiff United
States of America to respond to Bjerknes's motion by March 14, 2019. The United States
subsequently requested an extension of time to file its response so that it could obtain complete
copies of state court transcripts and fully investigate the allegations raised in Bjerknes's motion. The
Court granted that request.
The United States now requests a second extension of time to respond and an order directing
Bjerknes's former counsel, Peter B. Wold, to file an affidavit responding to Bjerknes's allegations.
(Dkt. 79.) The United States represents that it has obtained and reviewed the relevant state court
transcripts and contends that Bierknes has placed his communications with Wold at issue, thus
waiving the attorney-client privilege. For this reason, the United States requests an order that (1)
direcis{2019 U.S. Dist. LEXiS 2} Woid to submit an affidavit responding to Bjerknes's allegations
within 45 days, (2) extends the United States's response deadline to 14 days after Wold submits his
affidavit, and (3) extends Bjerknes's reply deadline to 30 days after the United States files its
response.
When a criminal defendant alleges that he gr she received ineffective assistance of counsel and puts
their communications with defense counsel at issue, the defendant has waived the attorney-client,
privilege with respect to those communications. See Tasby v. United States, 504 F.2d 332, 336 (8th
Cir. 1974) ("A client has a privilege to keep his conversations with his attorney confidential, but that
privilege is waived when a client attacks his attorney’s competence in giving legal advice, puts in

lyhcases

• l

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX i (lof2)

,

•->

... V.'

.■*

issue that advice and ascribes a course of action to his attorney that raises the specter of
ineffectiveness or incompetence.1’.); see also United States v. Workman, 138 F.3d 1261, 1263 (8th
Cir. 1998) ("Voluntary disclosure of attorney client communications expressly waives the privilege.").'
Here, Bjerknes’s Section 2255 motion alleges that Wold provided him ineffective assistance of
counsel in connection with this case and a related state court prosecution. Because Bierknes has
placed his communications with Wold at issue, Bierknes has waived the attorney-client{2019 U.S.
Dist. LEXIS 3} privilege with, respect to those communications.
When considering a Section 2255 motion to vacate, set aside, or correct a sentence, a district court
"may direct the parties to expand the record by submitting additional materials relating to the
motion," including court-ordered affidavits. See Rule 7(a), (b), Rules Governing Section 2255
Proceedings for the United States District Courts. When a defendant advances’an
ineffective-assistance-of-counsel claim in a Section 2255 motion, a court-ordered affidavit from the
defendant's former counsel may be necessary. See, e.g., United States v. Penoncelio, No.
15-cr-0120, at Dkf. 143 (D. Minn. Feb. 7, 2018); United States v. Vennes, No. 11-cr-0141, at Dkt. 379
(D. Minn. Oct. 15, 2014). Here, in light of Bjerknes's allegations, an affidavit from Wold’addressing
the allegations is warranted. Consequently, the motion of the United States seeking an affidavit from
Wold and an extension of time to respond to Bjerknes's Section 2255 motion is granted.
Based on the foregoing and all of the files, records and proceedings herein, IT IS HEREBY
ORDERED:
1. Plaintiff United States of America's second motion for an extension of time, (Dkt. 79), is

GRANTED.
2. Attorney Peter B. Wold shall file on ECF, and serve on Defendant{2019 U.S. Dist. LEXIS 4}
Brandon Mark Bierknes. an affidavit addressing Bjerknes’s allegations no later than Monday, May
27,2019.
3. The United Sfates shail file a response to Defendant's Section 2255 motion no later than 14 days
after Wold files his affidavit.
4. Bierknes may file a reply in support of his Section 2255 motion no later than 30 days after the
United States files its response.
/s/Wilhelmina M. Wright
Wilhelmina M. Wright
United States District Judge
Dated: Aprii 23, 2019

APPENDIX i (2of2)

lyhcases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 1 of 13

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Case No. 17-cr-0234 (WMW)

United States of America,
Plaintiff,

ORDER DENYING DEFENDANT’S
MOTION TO VACATE
CONVICTIONS

v.

Brandon Mark Bjerknes,
Defendant.

This matter is before the Court on Defendant Brandon Mark Bjerknes’s motion to '
vacate his convictions pursuant to 28 U.S.C. § 2255. (Dkt. 67.) Plaintiff United States of
America opposes the motion. For the reasons addressed below, the motion is denied.

BACKGROUND
Bjerknes pleaded guilty on September 28, 2017, to one count of coercion and
enticement of a minor to engage in sexual activity, in violation of 18 U.S.C. §§ 2422(b),
2427, and one count of production of child pornography, in violation of 18 U.S.C.
§ 2251(a), (e). Bjerknes’s convictions arise from his scheme, executed between 2014 and
2017, to use “various social media applications, including Facebook and Snapchat, to
solicit images and videos constituting child pornography from minor females, engage in
sexually explicit conversations with minor females, and distribute sexually explicit images
and videos to minor females and males.” Bjerknes’s scheme involved at least 55 minors.
Before Bjerknes was criminally charged for the conduct underlying his convictions,
Minnesota law-enforcement authorities investigated Bjerknes’s conduct. Beltrami County

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 2 of 13

prosecutors charged Bjerknes in Beltrami County District Court on March 23, 2017, with
multiple felony counts of engaging in electronic communication relating to or describing
sexual conduct with a child. Subsequently, on May 30, 2017, federal prosecutors charged
Bjerknes by complaint with multiple federal felony counts based on the same criminal
conduct. The federal complaint was dismissed after Bjerknes waived his right to be
indicted by a grand jury and pleaded guilty to two felony offenses on September 28, 2017.
Approximately one week later, Bjerknes pleaded guilty to the state criminal charges in
Beltrami County.
On February 6, 2018, this Court imposed two concurrent 300-month sentences of
imprisonment for Bjerknes’s federal convictions in this case. This Court also ordered that
Bjerknes’s federal sentences run concurrently with any sentence that might be imposed for
Bjerknes’s criminal convictions of state offenses in Beltrami County. Two days later, the
Beltrami County District Court sentenced Bjerknes to imprisonment for 15, 20, 25, and 30
months, respectively, for his four state criminal offenses. Bjerknes did not appeal his
federal or state convictions or sentences.
On February 11, 2019, Bjerknes filed the pending motion to vacate his convictions
pursuant to 28 U.S.C. § 2255, arguing that state and federal prosecutors colluded and
abused their discretion by charging him for the same conduct in both state court and federal
court and that his attorney provided ineffective assistance of counsel. Bjerknes also moves
for discovery. The United States opposes Bjerknes’s motions.

2

CASE 0:17-cr-00234>WMW Doc. 87 Filed 04/27/20 Page 3 of 13

ANALYSIS
A federal prisoner may move to vacate a conviction or sentence “for jurisdictional
and constitutional errors” or fundamental errors of law that inherently result in “a complete
miscarriage of justice.” Sun Bear v. United States, 644 F.3d 700, 704 (8th Cir. 2011)
(internal quotation marks omitted).

A defendant seeking relief “cannot raise a non­

constitutional or non-jurisdictional issue in a § 2255 motion if the issue could have been
raised on direct appeal but was not.” Anderson v. United States, 25 F.3d 704, 706 (8th Cir.
1994). It is the defendant’s burden to establish that Section 2255 relief is warranted. See
Cassidy v. United States, 428 F.2d 585, 587 (8th Cir. 1970). Bjerknes advances two
grounds for vacating his convictions—collusion by state and federal prosecutors and
ineffective assistance of counsel—which the Court addresses in turn.
I.

Collusion by State and Federal Prosecutors

Bjerknes first argues that the state and federal prosecutors abused their discretion
and violated the United States Constitution by charging him for the same conduct in both
state and federal court. According to Bjerknes, his federal prosecution was a “sham”
because it “was nothing short of a secondary prosecution to substantially increase the
statutory [imprisonment] range [Bjerknes] was subject to in the state court.”
The Double Jeopardy Clause of the Fifth Amendment to the United States
Constitution provides that no person shall “be subject for the same offense to be twice put
in jeopardy of life or limb.” U.S. Const, amend. V. Under the dual sovereignty doctrine,
“although a defendant may not be prosecuted twice by the same sovereign for the same
acts, a subsequent prosecution by a separate sovereign does not violate the Constitution.”

3

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 4 of 13

United States v. Leathers, 354 F.3d 955, 959-60 (8th Cir. 2004) (quoting United States v.
Johnson, 169 F.3d 1092, 1096 (8th Cir. 1999)). For the purpose of the Double Jeopardy
Clause and the dual sovereignty doctrine, the State of Minnesota and the United States are
separate sovereigns. See id. at 960.
While acknowledging the applicability of the dual sovereignty doctrine in his
Section 2255 motion, Bjerknes nonetheless argues that the state and federal prosecutors
“exploited]” this doctrine to pursue a “sham” prosecution in federal court. A “state
prosecution that is merely a sham and a cover for a federal prosecution” may violate the
Double Jeopardy Clause. Johnson, 169 F.3d at 1096 (quoting Bartkus v. Illinois, 359 U.S.
121,124 (1959)). But the United States Court of Appeals for the Eighth Circuit has “never
explicitly held that the Bartkus [sham] exception applies” when the federal prosecution
occurs after the state prosecution. Leathers, 354 F.3d at 960 (citing United States v. Basile,
109 F.3d 1304, 1307 (8th Cir. 1997)). Here, Bjerknes’s federal prosecution occurred after
his state prosecution and, therefore, the “sham” exception addressed in Bartkus is
inapposite.
Even if the sham exception were applicable to a federal prosecution that occurred
after a state prosecution, Bjerknes has not established that his federal prosecution was a
“sham and cover” for his state prosecution. According to Bjerknes, “the true motive behind
the ‘referral’ to federal venue” in this case was to take advantage of the harsher federal
penalties, thus demonstrating that the state prosecutor “was utilizing the Federal Venue as
a Sham for the state.” But Bjerknes’s argument is unavailing. “[RJeferrals and cooperation
between federal and state officials not only do not offend the Constitution,” they “are

4

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 5 of 13

commonplace and welcome.” Id. (citing Bartkus, 359 U.S. at 123). The independence of
federal prosecutors is not undermined by a state prosecutor’s referral, “regardless of the
state prosecutor’s motives in making the referral.” Leathers, 354 F.3d at 960. Indeed, the
Eighth Circuit has recognized that cooperation between federal and state law enforcement
authorities because the relevant federal laws “carried the potential for harsher penalties ..
. is not out of the ordinary.” Chavez v. Weber, 497 F.3d 796, 804 (8th Cir. 2007) (citing
Leathers, 354 F.3d at 960). Moreover, prosecuting a federal crime in federal court that
previously “has been prosecuted as a state crime in a state court does not itself violate due
process,” even when the defendant is subject to a harsher sentence in federal court than in
the prior state court proceeding. United States v. Turpin, 920 F.2d 1377, 1388 (8th Cir.
1990). As such, Bjerknes’s contention that “improper motives” led to his prosecution in
both state court and federal court is not a basis for vacating his convictions. i
Bjerknes also contends that the federal prosecutor violated the “Petite policy” of the
Department of Justice. “The Petite policy, an internal policy of the Department of Justice,
states that a federal prosecution should not be based on substantially the same acts as were
the basis for a prior state prosecution unless there is a compelling federal interest.” United
States v. Larsen, 427 F.3d 1091, 1094 (8th Cir. 2005). But because the “Petite policy is a

i

A sham prosecution may occur if, regardless of motive, “the state has effectively
manipulated the actions of the federal government, so that the federal officials retained
little or no independent volition.” Leathers, 354 F.3d at 960 (internal quotation marks
omitted). But even when accepting Bjerknes’s allegations as true, nothing in Bjerknes’s
motion or the record in this case plausibly suggests that any such manipulation occurred
here. Although Bjerknes contends that the same evidence and investigators were involved
in both the state prosecution and the federal prosecution, such cooperation does not
demonstrate improper influence or manipulation of the federal prosecutor.

5

CASE 0:17-cr-00234»WMW Doc.87 Filed 04/27/20 Page 6 of 13

discretionary policy of the Department of Justice,” the policy “does not confer any
substantive rights and its application cannot form the basis for a claim of improper
prosecution.” Leathers, 354 F.3d at 962. Accordingly, Bjerknes’s reliance on the Petite
policy fails to establish a meritorious claim for relief.
For these reasons, Bjerknes’s motion to vacate his convictions based on alleged
collusion between the state and federal prosecutors is denied.
II.

Ineffective Assistance of Counsel

Bjerknes also argues that his defense attorney, Peter B. Wold, provided ineffective
assistance. To prevail on a claim of ineffective assistance of counsel, a defendant must
show that (1) “counsel’s representation fell below an objective standard of reasonableness”
and (2) “there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.” Strickland v. Washington, 466 U.S.
668, 688, 694 (1984).

“Judicial scrutiny of counsel’s performance must be highly

deferential.” Id. at 689. When evaluating the reasonableness of defense counsel’s conduct,
courts apply “a strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. Counsel’s “strategic choices” executed after a
thorough investigation of the relevant law and facts “are virtually unchallengeable.” Id. at
690.
Bjerknes alleges that, by waiving Bjerknes’s speedy trial rights and failing to
provide Bjerknes with access to discovery, his counsel provided ineffective assistance. The
Court addresses each allegation in turn.

6

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 7 of 13

A.

Speedy Trial Rights

Bjerknes first contends that his former counsel, Wold, waived Bjerknes’s right to a
speedy trial without Bjerknes’s knowledge and against Bjerknes’s wishes.2

Each

submitted an affidavit that pertains to the relevant events.
According to Bjerknes, his counsel was “conspiring with the United States Attorney
to deprive the defendant of his right to not only speed [sic] trial but his right to a Grand
Jury.” In his affidavit, Bjerknes attests:
At the time I signed my plea, I did not know that Mr.
Wold had waived my speedy trial rights in the State of
Minnesota, and in the District Court....
At no time following my [sic] April 2017 did I ever give
Mr. Wold ... the impression or instruction that I wished to
waive my speedy trial rights or grant an extension for such
rights. My continual requests as to the status of my indictment
firmly established my wishes for such rights.
Bjerknes’s former counsel recounts a different version of events. According to counsel,
when he appeared with Bjerknes in state court for a pretrial conference on May 17, 2017,
the state prosecutor served Bjerknes with new evidence and an amended complaint adding
a criminal count. “Based on the Amended Complaint and the new evidence” provided by
the state prosecutor, Wold attests, Bjerknes’s “Speedy Trial Demand was withdrawn with
agreement of Mr. Bjerknes” and this waiver was placed on the record in state court.
Approximately two weeks after the United States filed the federal criminal
complaint against Bjerknes in this Court, Bjerknes filed a motion for a 60-day extension of

2

The same counsel represented Bjerknes in connection with both his state
prosecution and his federal prosecution.

7

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 8 of 13

time for the United States to. file an indictment. In this June 12, 2017 motion, which
includes Bjerknes’s signature, Bjerknes represents to the Court that he “consents to the
request and agrees that any period of delay is excluded from the calculation of time under
the Speedy Trial Act.” The magistrate judge granted that motion. On August 9, 2017,
Bjerknes filed a motion for an additional 30-day extension, until September 27, 2017,
which the magistrate judge also granted. This second motion does not include Bjerknes’s
signature but represents that Wold “consulted with Defendant about this extension request,
and Defendant consents to the request and agrees that any period of delay is excluded from
the calculation of time under the Speedy Trial Act.” Consistent with this representation,
Wold’s affidavit provides:
On August 7,2017, based on representation by the government
that they were about to produce discovery and propose a plea
agreement, we agreed to extend the indictment for another
thirty days. I discussed that in a phone call with Mr. Bjerknes
on August 7,2017. He agreed to an extension for another thirty
days understanding that we would hope to reach a plea
agreement within that time.
The parties did reach a plea agreement within that time period and Bjerknes appeared for
a change-of-plea hearing on September 28, 2017. At that hearing the Court, following its
standard practice, advised Bjerknes of his rights, including the right to a speedy trial and
the right to be indicted by a grand jury. Bjerknes waived those rights and pleaded guilty
to a felony information, resulting in the convictions that he now seeks to vacate.
When a district court receives conflicting statements from a Section 2255 petitioner
and the petitioner’s former counsel, the district court must conduct an evidentiary hearing
only if “neither statement is facially incredible and both contain similar specificity” about

8

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 9 of 13

the disputed issue. Witthar v. United States, 793 F.3d 920,923-24 (8th Cir. 2015) (internal
quotation marks omitted). Bjerknes does not dispute that he signed the June 12, 2017
motion seeking an extension of time and waiver of his speedy trial rights. Nor does he
specifically dispute any other material aspect of Wold’s affidavit. At the September 28,
2017 change-of-plea hearing, the Court advised Bjerknes of his constitutional rights, which
he expressly waived after confirming that he understood them.

On this record, an

evidentiary hearing is unnecessary because Bjerknes’s allegations are both facially
incredible and lacking in specificity.
Bjerknes also has not established that Wold’s representation fell below an objective
standard of reasonableness with respect to the waiver of Bjerknes’s speedy trial rights. The
record amply demonstrates that Bjerknes repeatedly and voluntarily waived his speedy trial
rights. Moreover, by entering a guilty plea—the validity of which Bjemkes does not
challenge—Bjerknes waived both his right to a speedy trial and his right to challenge any
alleged prior violations of his speedy trial rights in this case. See Cox v. Lockhart, 970
F.2d 448,453 (8th Cir. 1992). And even if Wold’s actions were objectively unreasonable,
Bjerknes offers, and the record supports, no plausible grounds for concluding that the result
of the proceeding would have been different had Bjerknes’s speedy trial rights not been
waived.
For these reasons, Bjerknes has not demonstrated that he received ineffective
assistance of counsel on this basis.

9

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 10 of 13

B.

Access to Discovery

Bjerknes also argues that Wold failed to provide him with sufficient access to
discovery. According to Bjerknes, despite requesting access to the discovery materials in
this case at least twice after the June 5, 2017 detention hearing, Bjerknes was permitted to
review the discovery only “a single time,” and the discovery provided to him was
incomplete because victim information had been removed.
Wold attests, in his affidavit, that he first provided Bjerknes with discovery from
the state prosecutor on April 10, 2017. Subsequently, on August 8, 2017, the federal
prosecutor provided Wold with discovery subject to an August 2, 2017 protective order
entered by the magistrate judge in this case. Although the protective order precluded
Bjerknes from personally retaining copies of victims’ identifying information included in
the discovery, Wold provided Bjerknes the opportunity to review the discovery at Wold’s
office. And Bjerknes did so. The United States acknowledges that, because of the volume
of videos and images of child pornography that comprised the discovery in this case,
portions of the discovery materials were available for inspection only at the Minnesota
Bureau of Criminal Apprehension (BCA). But the United States presents evidence that
Wold reviewed these discovery materials at the BCA.
At the September 28, 2017 change-of-plea hearing, the Court followed its standard
practice by advising Bjerknes of his rights and confirming, among other things, that
Bjerknes had discussed with Wold everything about the case that he wished to discuss.
Bjerknes expressly waived certain rights—including the right to file pretrial motions

10

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 11 of 13

challenging the government’s evidence against him—and he pleaded guilty to a felony
information, resulting in the convictions he now seeks to vacate.
Nothing in Bjerknes’s briefing or affidavit materially contradicts the representations
of Wold or the United States with respect to Bjerknes’s access to the discovery in this case.
And the record corroborates Wold’s account. Bjerknes undisputedly had the opportunity
to personally review the discovery in this case, and he expressly waived his right to
challenge the United States’s evidence when he entered his guilty plea. It is true that
Bjerknes’s access to some aspects of the discovery was limited by the protective order in
this case, the purpose of which was to protect from public disclosure the personal
information of minor victims.

But Bjerknes does not challenge the validity of the

protective order, which the record reflects was entered with Bjerknes’s knowledge and
consent3 and which is consistent with applicable law. See 18 U.S.C. § 3509(d) (governing
privacy protections for minor victims).

Moreover, even if Wold’s handling of the

discovery in this case were objectively unreasonable, Bjerknes offers no plausible grounds
for concluding that the result of the proceeding would have been different had Bjerknes
been given broader access to the pornographic or any other discovery materials. Indeed,
Bjerknes does not suggest that he was denied access to exculpatory discovery materials, or
that the limitations on his ability to personally review all the discovery materials influenced
his decision to plead guilty in any way.

3

The United States’s motion seeking the protective order represents that “[t]he parties
have conferred regarding a protective order” and Bjerknes “indicated through counsel that
he is agreeable to the terms of the proposed protective order.” Bjerknes has not disputed
this representation.

11

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 12 of 13

For all these reasons, Bjerknes has not demonstrated that he received ineffective
assistance of counsel on this basis.
III.

Evidentiary Hearing

A district court may hold an evidentiary hearing on a Section 2255 motion to resolve
disputed material facts. See 28 U.S.C. § 2255(b). But an evidentiary hearing is not
required if “(1) the petitioner’s allegations, accepted as true, would not entitle the petitioner
to relief, or (2) the allegations cannot be accepted as true because they are contradicted by
the record, inherently incredible, or conclusions rather than statements of fact.” Sanders
v. United States, 341 F.3d 720, 722 (8th Cir. 2003). Here, for the reasons addressed above,
Bjerknes’s allegations are contradicted by the record, inherently incredible, and would not
entitle him to relief even if accepted as true. Thus, an evidentiary hearing is not warranted.
IV.

Certificate of Appealability

When a final order is issued in a Section 2255 proceeding, a “certificate of
appealability may issue . . . only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). For the reasons addressed above,
the Court concludes that Bjerknes has not made a substantial showing of the denial of a
constitutional right. Accordingly, no certificate of appealability shall issue.
ORDER
Based on the foregoing analysis and all the files, records and proceedings herein, IT
IS HEREBY ORDERED:
1.

Defendant Brandon Mark Bjerknes’s motion to vacate his convictions

pursuant to 28 U.S.C. § 2255, (Dkt. 67), is DENIED.

12

CASE 0:17-cr-00234-WMW Doc.87 Filed 04/27/20 Page 13 of 13

2.

Defendant Brandon Mark Bjerknes’s request for a subpoena, (Dkt. 72), is

DENIED.
3.

Defendant Brandon Mark Bjerknes’s motion for discovery, (Dkt. 82), is

DENIED.
4.

No certificate of appealability shall issue.

LET JUDGMENT BE ENTERED ACCORDINGLY.

Dated: April 27, 2020

s/Wilhelmina M. Wright
Wilhelmina M. Wright
United States District Judge

13

CASE 0:17-cr-00234-WMW Doc.88 Filed 04/28/20 Page 1 of 1

UNITED STATES DISTRICT COURT
District of Minnesota
United States of America,

Case No. 17-cr-00234-WMW-l

Plaintiff
JUDGMENT IN A CRIMINAL CASE

v.

Brandon Mark Bjerknes
Defendant.

E!

Decision by Court This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED THAT:
1.

Defendant Brandon Mark Bjerknes’s motion to vacate his convictions

pursuant to 28 U.S.C. § 2255, (Dkt. 67), is DENIED.
2.

Defendant Brandon Mark Bjerknes’s request for a subpoena, (Dkt. 72), is

DENIED.
3.

Defendant Brandon Mark Bjerknes’s motion for discovery, (Dkt. 82), is

DENIED.
4.

No certificate of appealability shall issue.

Date: April 28, 2020
KATE M. FOGARTY, CLERK
s/M. Brigan
By: M. Brigan
Deputy Clerk

j

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2713

Brandon Mark Bjerknes
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-00350-WMW)
JUDGMENT

Before SHEPHERD, KELLY, and ERICKSON, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
February 02, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/si Michael E. Gans

Appellate Case: 20-2713

Page: 1

Date Filed: 02/02/2021 Entry ID: 5000260

i

•. .

.» •

.

«

. «
.

*

4
4
■

»

Brandoh Mark Bjerknes, Appellant v. United States of America, Appellee
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
2021 U.S. App. LEXIS 14197
No: 20-2713
May 12, 2021, Decided
Editorial Information: Prior History
{2021 U.S. App. LEXIS 1}Appeal from U.S. District Court for the District of Minnesota.
(0:19-cv-00350-WMW).
Counsel

Brandon Mark Bjerknes. Petitioner - Appellant, Pro se, Milan, Ml.
•
For United States of America, Respondent - Appellee: Craig
Raymond Saune, Assistant U.S. Attorney, Angela M. Munoz, U.S. ATTORNEY'S OFFICE,
Minneapolis, MN.
Opinion

ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is also denied.

«

CIRHOT

♦

1

© 2021 Matthew BenderS Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX ii

